No. 20A98
IN THE SUPREME COURT OF THE UNITED STATES
MIKE KELLY, ET AL.,
Applicants,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been
served with copies of the Motion for Leave to File and Carter Phillips, Stuart M.
Gerson, John Danforth, Cristine Todd Whitman, Lowell Weicker, et al., as Amici
Curiae in Support of Respondents and in Opposition to the Emergency
Application for Injunctive Relief, via electronic mail this 7th day of December
2020.
[See Attached Service List]
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 7, 2020

/s/ Nancy A. Temple____
Nancy A. Temple

SERVICE LIST:
Gregory H. Teufel
Counsel of Record
OGC Law, LLC
1575 McFarland Rd.
Suite 201
Pittsburgh, PA 15216
Email: gteufel@ogclaw.net

Counsel for Applicants/Petitioners

Michele D. Hangley
Robert A. Wiygul
John G. Coit
Christina C. Matthias
John B. Hill
Hangley Aronchick Segal
Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103

mhangley@hangley.com

Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar
Barry H. Berke
Dani R. James
Kramer Levin Naftalis &
Frankel LLP
1177 Avenue of the Americas
New York, New York 10036
bberke@kramerlevin.com

Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar
J. Bart Delone
Chief Deputy Attorney General
Sean A. Kirkpatrick
Senior Deputy Attorney General
PA Office of Attorney General
Strawberry Square, 15th Floor
Harrisburg, PA 17120
jdelone@attorneygeneral.gov

Counsel for Respondents
Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar

Jonathan F. Bloom
Karl S. Myers
Spencer R. Short
Melissa L. Perry
Stradley Ronon Stevens
and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
jbloom@stradley.com

Counsel for Respondent
Pennsylvania General Assembly

